WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-5388

The State of Texas

Michael J. Buck

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE -he petition for a writ of certiorari unless one is requested
by The Court.
Please check the appropriate boxes:

E Please enter my appearance as Counsel of Record for all respondents.
O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a 'member of the Bar of the Supreme Court of the United States.
I am not presently a nie iber of the Bar of this Court. Should a response he requested, the response
will be filed by a Bar m mber.
Signature
Date.
(Type or print) Name

,'ohn L. Davis
0 Mr.

Firm 34th
Address

City &
Phone

[] Ms.

IIJ Mrs.

0 Miss

Judicial District Attorney's Office

500 E. San Antonio, 2nd Floor

State

El Paso, Texas

(915) 256-2393

Zip

79901

Erna jdavis@epcounty.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO S. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

cc: Nicholas C. Vitolo; Todd Morten

RECEIVED
AUG 28 If)20
OFFICE OF THE CLERK
SUPREME COURT U.S.

